NO:

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.

IHT INSURANCE AGENCY GROUP LLC WELFARE BENEFITS PLAN,
ET AL., RESPONDENTS

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CINCINNATI, OHIO

PETITION FOR WRIT OF CERTIORARI

FILED
AUG 0 2 2021

Merrilee Stewart
182 Corbins Mill Drive
OFFICE OF THE CLERK
SUPREME COURT. LJ S
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se of behalf
of Merrilee Stewart, Petitioner

RECEIVED
AUG - 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1.

I. The questions presented for review
A. In recognition of the escalation of the disease of addiction and deaths, “over
81,000 drug overdose deaths occurred in the United States in the 12 months ending
in May 2020, the highest number of overdose deaths ever recorded in a 12-month
period” O), this Supreme Court should grant review because, by doing so, this court
can clarify the civil liberties, privacy, protections and private right of action
afforded a Drug Addict in recovery addressed in the Americans with Disabilities
Act, the Affordable Care Act, ERISA law and the Constitution of these United
States.
Question presented for review: Before an employee may have been deemed to
have waived the comprehensive rights, remedies and procedural protections
prescribed in civil rights statutes, must there at least be a knowing
agreement to Arbitrate those employment disputes?
B. If a decision to dismiss is predicated by the unclean hands of officers of the court
presenting egregious errors of fact and in violation of law then shall not the highest
court in this land review?
Question(s) presented for review: 1) Does the 6th Circuit court have the duty
to uphold the constitutional protections that have been denied and withheld
from a citizen because an officer of the court has committed fraud upon the
court, and 2) Is the corporations fraudulent transfer of all assets, facilitated
by counsel, to avoid known creditors, a criminal offense?

Note: If this petition is accepted, an Attorney who is licensed to the bar of this court
will conduct oral argument.

6) The Centers for Disease Control (CDC) stated in a December 2020 press release
that “over 81,000 drug overdose deaths occurred in the United States in the 12
months ending in May 2020, the highest number of overdose deaths ever recorded
in a 12-month period.” Even though overdoses were increasing prior to the
pandemic, the CDC states that “the latest numbers suggest an acceleration of
overdose death during the pandemic.”

11.

II. Parties to the proceedings.
The caption contains the names of all the parties to the proceedings.

111.

TABLE OF CONTENTS
I. The questions presented for review.................................................................

i

A. In recognition of the escalation of the disease of addiction and deaths,
“over 81,000 drug overdose deaths occurred in the United States in the
12 months ending in May 2020, the highest number of overdose deaths
ever recorded in a 12-month period” (1), this Supreme Court should grant
review because, by doing so, this court can clarify the civil liberties,
privacy, protections and private right of action afforded a Drug Addict in
recovery addressed in the Americans with Disabilities Act, the
Affordable Care Act, ERISA law and the Constitution of these United
States.
Before an employee may have been deemed to have waived the
comprehensive rights, remedies and procedural protections
prescribed in civil rights statutes, must there at least be a
knowing agreement to Arbitrate those employment disputes?
B. If a decision to dismiss is predicated by the unclean hands of officers
of the court presenting egregious errors of fact and in violation of law
then shall not the highest court in this land review?
Does the 6th Circuit court have the duty to uphold the
constitutional protections that have been denied and withheld
from a citizen because an officer of the court has committed fraud
upon the court?
Is the corporations fraudulent transfer of all assets, facilitated by
counsel, to avoid known creditors, a criminal offense?
II. Parties to the proceedings
Table of Contents

li
lll-V

Opinions

Vl-Vll

Table of Authorities

Vlll-X

III. Citations of the opinions and orders entered in the case by courts
IV. The basis for jurisdiction

1,2
2

IV.

V. Constitution and Legal Principles...........................................................

2

A. Arbitration of Civil Rights and Employment Discrimination Claims:
The Arbitration Clause contained in the RRL Buy Sell Agreement
did not put Petitioner Merrilee Stewart or her disabled son on
notice that she/he was waiving her/his rights to pursue civil rights
and employment discrimination claims against IHT Insurance
Agency Group LLC or the health plan administrator Fritz W.
Griffioen in the Federal Courts.
The 9th Circuit Court has held that “Congress intended there to
be at least a knowing agreement to arbitrate employment disputes
before an employee may be deemed to have waived the
comprehensive rights, remedies and procedural protections
prescribed” in the civil rights statutes.
B. Constitutional and Common Law Right to Privacy...................

2

A person has an actionable right to be free from the invasion of
privacy.
One who intentionally intrudes, physically or otherwise, upon the
solitude or seclusion of another or his/her private affairs or
concerns, is subject to liability to the other for invasion of privacy
Americans With Disabilities Act affords protections against
discrimination for alcoholics and drug addicts in recovery.
C. Fraud upon the Court............................................................................

3

The documented malfeasance and fraud upon the court committed
by officers of the court Shumaker, Loop & Kendrick (“Shumaker”)
of sufficient gravity to warrant reversal?
All attorneys and judges are officers of the court. Under Federal
law, when any officer of the court has committed "fraud upon the
court", the orders and judgment of that court are void, of no legal
force or effect.
D. Disregard for law, contract or court order in making RRL Holding
Company of Ohio, LLC a Dead Entity on December 31, 2018.....................
This undisclosed event, was hidden from the courts and Petitioner
Merrilee Stewart under the guise of a name change only.
The Ohio Secretary of State did not receive proper disclosure or
this merger of RRL out of existence would not have been
authorized.

3,4

V.

Shumaker, Loop & Kendrick facilitated the seizure of all assets of
Respondent RRL Holding Company of Ohio, LLC (“RRL”) for the
benefit of a new set of owners, avoiding known creditors, including
Petitioners’ Certified Award. Is the a criminal act?
VI. Statement of the Case

5

VII. Reason for Granting the Writ

16

VIL Conclusion

18

INCLUDED SEPARATELY
APPENDIX
CERTIFICATE OF WORD COUNT
CERTIFICATE OF SERVICE

VI.

OPINIONS: List of all proceedings in state and appellate courts
that are directly related to the case in this Court
and challenges the same convictions as is challenged in this court.
Judgement Entry
Docket no. Court
♦Pages 1-7
Decided & filed:
20-3754
United States Court of Appeals for
March 5, 2021
the Sixth Circuit Cincinnati, Ohio
Case Caption: Case No. 20-3754, Merrilee Stewart, et al v. IHT Insurance Agency
Group, et al
Description: Appeal from the United States District Court for the Southern
District of Ohio at Columbus, No. 2:16-cv-00210, James L. Graham, District
Judge.
Status: Appeal was denied

Appendix
A

Docket no. Court
Judgement Entry
♦Pages 8-20
2:16-cvDecided & filed:
United States Court of Appeals for
June 15, 2020
00210
the Sixth Circuit Cincinnati, Ohio
Case Caption: Merrilee Stewart, et al v. IHT Insurance Agency Group, et al
Description: Opinion & Order, Case: 2:16-cv-00210-JLG-KAJ Doc#: 72 Filed:
06/15/20 Page: 1 of 12 PAGEID #: 1128
Status: Case was dismissed with prejudice

Appendix
B

Judgement Entry
Docket no. Court
♦Pages 21-23
16-cvIn the Court of Common Pleas
Filed:
C
March 8, 2016
001761
Franklin County, Ohio
Case Caption: Merrilee Stewart v. IHT Insurance Agency Group, et al, Case No.
16-cv-001761
Description: Defendants Notice of filing notice of removal (R. OC944, U89)
Status: Case was removed to Federal Court by Defendants______________

Appendix

i

Docket no. Court
Judgement Entry
♦Pages 24-25
2016-CVFiled:
In the Court of Common Pleas
0127
March 14, 2018
Wood County, Ohio
Case Caption: Merrilee Stewart v. Fritz W. Griffioen, et al
Description: Order Continuing Stay, the Court ordered this case to be stayed,
pending arbitration, on September 8, 2017 and on March 12, 2018 Defendants
filed a Status Report and requested the matter remain stayed.
Status: Case remains stayed

Appendix
D

Vll.

OPINIONS: List of all proceedings in state and appellate courts
that are directly related to the case in this Court
and challenges the same convictions as is challenged in this court.
i

Judgement Entry
Docket no. Court
♦Pages 26-34
15-cv-1842
Franklin
County
Ohio
Court of
Decided & filed:
November 10, 2015
Common Pleas Civil Division
Case Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee Stewart, et al
Description: Stay Order, pending arbitration, from Franklin County Ohio Court of
Common Pleas Civil Division, Case No. 15CV1842, Judge Kim J. Brown
Status: Case remains stayed

Appendix
E

Appendix
F

Judgement Entry
Pending

Docket no.
2021-0385

Court
♦Pages 35-53
The Supreme Court of Ohio

Case Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee Stewart, et al
Description: Motion for Reconsideration, On Appeal from Tenth District
Court of Appeals Case No. 20-AP-674, from lower court (C.P.C. 15-CV-1842)
Status: Filed and accepted on June 21, 2021, Decision is pending
Court
♦Pages 54-83
Tenth District Court of Appeals
Franklin County, Ohio
Case Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee Stewart, et al
Description: On appeal from Franklin County Ohio Court of Common Pleas Civil
Division, Case No. 15CV1842, Judge Kim J. Brown____________________________
Status: Fully briefed as of March 26, 2021 Decision is pending__________________

Appendix
G

Judgement Entry
Pending

Docket no.
20-AP-493

Docket no. Court
♦Pages84-124
Judgement Entry
19AP202
Tenth
District
Court
of Appeals
Decided & filed:
Franklin County, Ohio
01/23/2020
Case Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee Stewart, et al
Description: Decision “On remand, the trial court shall vacate that finding and
any award of sanctions or attorney fees pertaining thereto.”_____________________
Status: Franklin County, Ohio Common Pleas Court Judge Kim J. Brown refuses
to hold the hearing as was ordered by the higher court. Case No. 15CV1842_______

Appendix
H

vm.
TABLE OF AUTHORITIES
Cases:
Black v. Aegis Consumer Funding Group, Inc., 2001 U.S. Dist. LEXIS
2632 (S.D. Ala. Feb. 8, 2001).

3

Block v. Art Iron, Inc. 866F. Supp. 380, 396 (N.D. Ind. 1994)

2

Crosby v. Beam, 47 Ohio St. 3d at 108

5

Crosby v. Beam, 47 Ohio St.3d 105, 548 N.E.2d 217 (1989)

12

Dulien Steel Prods., Inc. v. Connell, 252 F.2d 556 (5th Cir. 1958)

8

H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536 F.2d 1115, 1119
(6th Cir. 1976).

3

Howard v. DeCordova, 177 U.S. 609 (1900)

8

Jackson v. Playboy Enterprises, Inc., 574 F. Supp. 10 (S.D. Ohio
1983).

3

Kenner v. C.I.R., 387 F.3d 689 (1968)

3

Mr. G. v. Mrs. G, 320 S.C. 305, 465 S.E.2d 101 (Ct. App. 1995), fn. 2.
(Emphasis added).

8

Nat’l Archives & Records Admin, v. Favish, 541 U.S. 157 (U.S. 2004).

3

Palmer v. Canadian Natl R.R., ARB No. 16-035, ALJ No. 2014-FRS154, at 53 (ARB Sept. 30, 2016)

15

Prudential Ins Co of Am v. Lai, 42F. 3d 1299, 1305 (9th Cir. 1994)

2

Gaines v. Fuentes, 92 U.S. 10 (1875)

8

Simon v. Southern Ry., 236 U.S. 115 (1915)

8

United States v. Mashunkshey, 72 F.2d 847 (10th Cir. 1934).

8

West v. Household Life Ins. Co., 170 Ohio App.3d 463,469, 2007-Ohio845 (10th Dist.).

5

IX.

Law and Code:

I

28 U.S.C. § 1257(a).

2

31 U.S.C. §313

12

5 U.S.C.S. § 552(b)(7)(C)

3

Affordable Care Act

l.

Americans with Disabilities Act

i.

Americans With Disabilities Act of 1990, Pub. L. No. 101-336, 104
Stat. 328 (1990)

3

Constitution of the United States of America

10

Constitution of these United States

i.

Dodd-Frank Wall Street Reform and Consumer Protection Act H.R.
4173 § 369 (1) (A),

11

\

Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub.
L. No. 111-203, 124 Stat. 1376 (2010) codified in the new section 21F
of the Securities Exchange Act of 1934.
ERISA
Fair Housing Act and The Civil Rights Act
False Claims Act

12

i

12
15

Fed. R. Civ. P. 15(A)(2),

11

Federal Rule 60(b)(3), by its express terms, permits judgments to be
set aside for fraud

8

Fifth, Fourteenth and Seventh Amendment to the constitution of the
United States of America.

8

Ohio Rev. C. § 1705.36

5

Ohio Rev. C. § 1705.391

5

X.

\

Ohio Rev. C. § 1705.41 (A)

5

Ohio Rev. C. § 1705.41 (B)

5

Ohio Rev. Code § 4113.52
Sarbanes-Oxley Act. (Code Sec. 7623(d) as amended by Act Sec.
1405(b))
Section 1405(b) of the TFA
The Taxpayer First Act

12
15
15
15

Title II IRS Code

9

U.S. Code §4101(1)

11

Research:
15 W. FLETCHER, supra note 1, §§ 7157, 7158 & 7162.1 (damage
remedy) (rev. vol. 1973). 106. Id § 7160.

4

3 W. FLETCHER, supra note I, § 921 (rev. vol. 1975). Such conflicts
render the transaction voidable by the corporation. See Id § 913.

4

7 Moore's Federal Practice, 2d ed., p. 512, f 60.23

3

Chris W. Altenbernd, Gary L. Sasso & George A. Vaka, CLE
Presentation, How to Prepare for an Oral Argument (Stetson U.
College of L., July 26, 2000) (copy on file with the Stetson Law
Review)

8

Page 1
III. Citations of the opinions and orders entered in the case bv courts.
A. This Case.
i. United States Court of Appeals for the Sixth Circuit Cincinnati, Ohio, Decided &
filed: March 5, 2021, Case No. 20-3754, Merrilee Stewart, et al v. IHT Insurance
Agency Group, et al Originating Case No. 2:16-cv-00210. “Appeal Denied” See
Appendix A.
ii. United States District Court for the Southern District of Ohio at Columbus,
Decided & filed: June 15, 2020, Case No. 2:16-cv-00210 Merrilee Stewart, et al v.
IHT Insurance Agency Group, et al. “Case Dismissed” See Appendix B.
iii. In the Court of Common Pleas Franklin County, Ohio, Filed March 8, 2016, Case
No. 16-cv-001761 Merrilee Stewart v. IHT Insurance Agency Group, et al.
“Defendants Notice of filing notice of removal” See Appendix C.
B. Decided related cases.
Tenth District Court of Appeals Franklin County, Ohio, Decided & filed: 01/23/2020,
Case 19AP202, Case Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee
Stewart, et al., See Appendix H and quoted in part below.
flO Appellees claimed appellant violated the Agreed Entry by claiming to be
an owner and authorized agent of IHT and RRL to: (1) the Ohio Civil Rights
Commission ("civil rights commission"); (2) the Columbus Police Department
("police"); (3) Hartford Insurance ("Hartford"); and (4) Liberty Mutual
Insurance ("Liberty") (collectively "insurance companies").
T|46 We agree the trial court did not give appellant an opportunity to rebut its
initial finding of violations of the Agreed Entry with regard to the civil rights
commission's claim and the police report and abused its discretion in not
reconsidering its interlocutory finding of November 7, 2016 and May 17,
2017, and in entering the final decision of March 15, 2019 with regard to the
insurance claims. This is evidenced in the court's implicit rejection, without
any reference thereto of the September 18, 2017 Notice and exhibits thereto
and appellant's objections to the magistrates' decisions. It is also evidenced
by the court's express words in its decisions.
f71 Quoted, in Part: “On remand, the court shall hold a hearing” “On
remand, the trial court shall vacate that finding and any award of sanctions
or attorney fees pertaining thereto.”
Status: The Opinion, to vacate and remand for hearing of the Tenth District Court
of Appeals Franklin County, Ohio Case No. 19AP202 entered on January 23, 2020
from the Appeal from Franklin County Ohio Court of Common Pleas, Case No.
15CV1842 special proceedings is being ignored by Common Pleas court Judge Kim J
Brown. The Judge refuses to comply with the order of the Tenth District Court of
Appeals and afford the Petitioner a hearing, Franklin County, Ohio Common Pleas
Court.

Page 2
C. Related Cases Stayed Pending Arbitration (which concluded December 8, 2017).
i. In the Court of Common Pleas Wood County, Ohio, Filed March 14, 2018, Case
2016-CV-0127 Merrilee Stewart v. Fritz W. Griffioen, et al, “Order Continuing
Stay”, the Court ordered this case to be stayed, pending arbitration, on September
8, 2017 and on March 12, 2018 Defendants filed a Status Report and requested the
matter remain stayed. Case remains stayed See Appendix D.
ii. In the Court of Common Pleas Franklin County, Ohio, Decided & filed: November
10, 2015, Case 15-cv-1842, Case Caption: RRL Holding Company of Ohio LLC, et al
v. Merrilee Stewart, et al., Stay Order, pending arbitration. Judge Kim J. Brown
refuses to lift the stay so the case remains stayed. See Appendix E.
D. Pending and related cases.
i. The Supreme Court of Ohio, Case No. 2021-0385, Case Caption: RRL Holding
Company of Ohio LLC, et al v. Merrilee Stewart, et al., See Appendix F
Status: Filed and accepted as of June 21, 2021, Decision is pending
11. Tenth District Court of Appeals Franklin County, Ohio, Case No. 20AP493, Case
Caption: RRL Holding Company of Ohio LLC, et al v. Merrilee Stewart, et al, See
Appendix G
Status: Fully briefed as of March 26, 2021, Decision is pending
IV. The basis for jurisdiction.
This Court’s jurisdiction is drawn from 28 U.S.C. § 1257(a).
V. Constitution and Legal Principles.
A. Arbitration of Civil Rights and Employment Discrimination Claims.
In this case, the Arbitration Clause contained in the RRL Buy Sell Agreement did
not put Petitioner Merrilee Stewart or her disabled son on notice that she/he was
waiving her/his rights to pursue civil rights and employment discrimination
claims against IHT Insurance Agency Group LLC or the health plan administrator
Fritz W.' Griffioen in the Federal Courts.
The 9th Circuit Court has held that “Congress intended there to be at least a
knowing agreement to arbitrate employment disputes before an employee may be
deemed to have waived the comprehensive rights, remedies and procedural
protections prescribed” in the civil rights statutes. Prudential Ins Co of Am v. Lai,
42F. 3d 1299, 1305 (9th Cir. 1994), see also Block v. Art Iron, Inc. 866F. Supp. 380,
396 (N.D. Ind. 1994) (“ADA’s legislative history very strongly suggest that ADA
claims may not be arbitrated in the absence of an express, voluntary waiver of the
right to assert the claims in the courts”)

Page 3
B. Constitutional and Common Law Right to Privacy.
A person has an actionable right to be free from the invasion of privacy. Black v.
Aegis Consumer Funding Group, Inc., 2001 U.S. Dist. LEXIS 2632 (S.D. Ala. Feb.
8, 2001).
One who intentionally intrudes, physically or otherwise, upon the solitude or
seclusion of another or his/her private affairs or concerns, is subject to liability to
the other for invasion of privacy. Jackson v. Playboy Enterprises, Inc., 574 F. Supp.
10 (S.D. Ohio 1983).
Americans With Disabilities Act of 1990, Pub. L. No. 101-336, 104 Stat. 328 (1990)
(“ADA”) affords protections against discrimination for alcoholics and drug addicts
in recovery.
The statutory privacy right protected by 5 U.S.C.S. § 552(b)(7)(C) goes beyond the
common law and the U.S. Constitution. Nat'l Archives & Records Admin, v.
Favish, 541 U.S. 157 (U.S. 2004).
C. Fraud upon the Court.
Did the 6th Circuit commit a reversible error when they failed to consider the
documented malfeasance and fraud upon the court committed by officers of the
court Shumaker, Loop & Kendrick (“Shumaker”) of sufficient gravity to warrant
reversal? “[s]ince attorneys are officers of the court, their conduct, if dishonest,
would constitute fraud on the court.” H.K. Porter Co. v. Goodyear Tire & Rubber Co.,
536 F.2d 1115, 1119 (6th Cir. 1976).
All attorneys and judges are officers of the court. Under Federal law, when any
officer of the court has committed "fraud upon the court", the orders and judgment
of that court are void, of no legal force or effect.
See Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512,
U 60.23. The 7th Circuit further stated "a decision produced by fraud upon the court
is not in essence a decision at all, and never becomes final."
D. Disregard for law, contract or court order in making RRL Holding Company of
Ohio, LLC a Dead Entity on December 31, 2018.
This undisclosed event, was hidden from the courts and Petitioner Merrilee Stewart
under the guise of a name change only. In addition, the Ohio Secretary of State did
not receive proper disclosure otherwise this merger of RRL out of existence would
not have been authorized.

Page 4
Shumaker, Loop & Kendrick in facilitating the seizure of all assets of Respondent
RRL Holding Company of Ohio, LLC (“RRL”) to avoid known creditors, including
Petitioners’ Certified Award, is a criminal act and this illegal merger must by
undone.
In response to a question from James R. Carnes of Shumaker, Loop & Kendrick
about Firefly, former/selling RRL member Respondent Fritz W. Griffioen testified
on July 9, 2019 (C.P.C. 15CV182) that Firefly was a renaming and a name change
for re-branding and marketing. It was after the hearing, in August 2019, when Ms.
Stewart discovered the State Document that showed RRL was “Merged Out of
Existence”.
See State of Ohio Certificate, Ohio Secretary of State, Jon Husted, 1658734,
Doc: 201836501222, effective 12/31/2018 RRL Dead.
As a non-consenting and unredeemed owner of 25% membership interest in RRL,
Petitioner Merrilee Stewart, directly attacks this illegal merger that is based upon
fraud, bad faith, and lack of authority.
Prior to completing the killing of RRL the controlling members were obligated to
pay a lump sum of $524,475.00 to Petitioner pursuant to the contract provisions
certified by the Tenth District Court of Appeals.
See Tenth District Court of Appeals 18AP118 Appeals Court R.R0331, U5
confirmed the Final Arbitration Award, quoted in part here: “Therefore, it is
ORDERED, ADJUDGED AND DECREED as follows: This Court hereby
confirms the December 11, 2017 Final Award in American Arbitration
Association Case No. 01-16-0003-9163 in all respects, pursuant to Ohio Rev.
Code § 2711.09. The terms of the Final Award (filed with the Motion as
Exhibit C) are specifically incorporated by reference into this Judgment
Entry. The terms of the Final Award shall be binding on the parties.”
EMPHASIS.
Pursuant to the RRL Buy/Sell Agreement and Petitioners Confirmed Award, the
uncured default on the lump sum requirement makes all unredeemed RRL shares
owned by Petitioner Ms. Stewart as active with full rights, privileges including
group life and health benefits, (emphasis).
However, in utter disregard and defiance to the order of the court and Petitioner
rights, Shumaker, Loop & Kendrick facilitated the merger of RRL out of existence.
See Dissenters' rights statutes. 15 W. FLETCHER, supra note 1, §§ 7157
(suit allowed), 7158 (injunctive remedy), & 7162.1 (damage remedy) (rev. vol.
1973). 106. Id § 7160. See also, fiduciaries with adverse interests, such as
personal contracts with the corporation, their business judgment on that

Page 5
matter is presumed invalid. 3 W. FLETCHER, supra note I, § 921 (rev. vol.
1975). Such conflicts render the transaction voidable by the corporation. See
id § 913.
Respondent and a new set of owners, six (6) total, had seized 100% of the assets of
RRL, making Firefly a non-affiliate and third-party to the RRL Buy/Sell Agreement.
This undisclosed change of control was done in violation of the RRL Buy/Sell
Agreement and the Laws of the State of Ohio that serve to protect the known and
anticipated creditors and was hidden from dissenting member Petitioner Ms.
Stewart. See Ohio Rev. C. § 1705.36, Ohio Rev. C. § 1705.41 (A). See also West v.
Household Life Ins. Co., 170 Ohio App.3d 463,469, 2007-Ohio-845 (10th Dist.).
Unless a third-party's enforcement of an agreement was "contemplated by the
parties and sufficiently identified" in the agreement, a third-party may not enforce
an arbitration agreement between two other entities.
Immediately upon discovery of this cognizable event (emphasis), that the former
controlling and selling members of RRL had made RRL a Dead Entity, Ms. Stewart
issue a demand pursuant to Ohio Rev. C. § 1705.41 (B).
See Ohio Rev. C. § 1705.41 (B) the dissenting member shall deliver to the company
a written demand for payment and Ohio Rev. C. § 1705.391 Legal effect of
conversion - action to set aside.
The controlling members of Respondent RRL, Respondent Fritz W. Griffioen, Bill
Griffoen and Rod Mayhill, redeemed their shares in RRL for l/6th ownership each
in a new entity with a new FEIN XX-XXX4159, non-affiliate Firefly, with three new
owners (Hans Griffioen, Ben Griffioen and Andy Kirkham).
These former members misused their powers for personal/family interests at the
expense of the company in violation of “the standard of a duty to be of the ‘utmost
good faith and loyalty.” Crosby v. Beam, 47 Ohio St. 3d at 108.
VI. Statement of the Case.
A. Preliminary statement.
This case was dismissed prematurely without opportunity to Amend (emphasis) by
Fraud upon the courts committed by Respondents, by way of counsel, which mislead
the court in determining issues and induced the court to find for the party
perpetrating the fraud (i.e., the Respondents).

Page 6
Petitioner Merrilee Stewart is a Federal Whistleblower and Informant working with
the Federal Bureau of Investigation, the Department of Treasury - Internal
Revenue Service (“IRS”), the Federal Trade Commission and the Federal Insurance
Office.
Plaintiff desires to “leave the investigations up to the Federal Authorities”,
however, also desires to be afforded protection from the on-going and continuous
retaliation” perpetrated upon this Petitioner by the Respondents and their legal
counsel.
Much attention has been paid to a release that does not exist and will never exist
even though it was fraudulently presented to Judge Graham as if it did.
The fact is, Plaintiffs had an Employee/Employer relationship with Respondent IHT
Insurance Agency Group, LLC (“IHT”) unrelated to Ms. Stewarts ownership shares
in Respondent RRL. These are two separate relationships. Petitioner Merrilee
Stewart’s Equal Employment Opportunity Commission (“EEOC”) right to sue for
discrimination and retaliation involves the Employee/Employer relationship and
not ownership of shares in RRL.
Accordingly, Petitioner prays for the granted permission to Amend the pleadings
and incorporate the Federal EEOC claims and the Federal Whistleblower protection
to prevent further adverse action for engaging in protected conduct and the duty to
report the White-Collar Criminal Activity ongoing at IHT.
B. Statement of the case.
This case involves claims premised under ERISA, ADA, privacy law and
whistleblower protections for multiple violations of duties owed to Petitioner.
Following the district court’s stay of the case pending arbitration in a state court
case, and after Ms. Stewart sought leave to file a Second Amended Complaint, she
was ordered to show cause as to why the case should not be dismissed.
C. Summary of the argument.
Petitioner Merrilee Stewart believes the district court’s ruling [..] dismissing the
case with prejudice, was a reversible error. The district court accepted without
verification as true several salient points, including the scope of the unsigned
release and the breadth of the claims decided in the state court case, which to this
day has not been finalized.

Page 7
Petitioner submits that these issues should have been the subject of discovery and
that the case should have proceeded, even if Ms. Stewart was required to dismiss
without prejudice and/or file their Second Amended Complaint. (R. 15, Page 20-21,
Appellants Brief)
D. Standard of review.
The arguments presented implicate De Novo standard of review. See Lawrence v.
Dep’t of Interior, 525 F.3d 916, 920 (9th Cir. 2008); see also Lewis v. United States,
641 F.3d 1174, 1176 (9th Cir. 2011). The appellate court must consider the matter
anew, as if no decision previously had been rendered. See Freeman v. DirecTV, Inc.,
457 F.3d 1001, 1004 (9th Cir. 2006). Review is “independent,” see Agyeman v. INS,
296 F.3d 871, 876 (9th Cir. 2002), or “plenary,” see Stilwell v. Smith & Nephew,
Inc., 482 F.3d 1187, 1193 (9th Cir. 2007); United States v. Waites, 198 F.3d 1123,
1126 (9th Cir. 2000). No deference is given to the district court.
In contract determination (i.e. The RRL Buy/Sell documents); See Doe I v. Wal-Mart
Stores, Inc., 572 F.3d 677, 681 (9th Cir. 2009); Milenhach v. Commissioner, 318 F.3d
924, 930 (9th Cir. 2003); but see Tyler v. Cuomo, 236 F.3d 1124, 1134 (9th Cir. 2000)
(stating that the interpretation of a contract is a mixed question of law and fact
reviewed de novo).
In Federal Whistleblower statutory interpretation; See Schleining v. Thomas, 642
F.3d 1242, 1246 (9th Cir. 2011); Beeman v. TDIManaged Care Svcs., 449 F.3d 1035,
1038 (9th Cir. 2006); see also Vega v. Holder, 611 F.3d 1168, 1170 (9th Cir. 2010)
(reviewing de novo BIA’s interpretation of statute, but explaining that “[i]f,
however, Congress has not directly addressed the exact issue in question, a
reviewing court must defer to the agency’s construction of the statute so long as it is
reasonable.” (quotation marks and citation omitted)).
In interpretation of Federal Rules involving an opportunity to Amend a complaint
and the Fraud upon the court; See United States v. Urena, 659 F.3d 903, 908 (9th
Cir. 2011) (evidence); Riordan v. State Farm Mut. Auto. Ins., 589 F.3d 999, 1004
(9th Cir. 2009) (civil procedure).
E. Law and Argument
I. Fraud upon the courts. If a decision to dismiss is predicated by the unclean hands
of officers of the court presenting egregious errors of fact and in violation of law
then shall not the highest court in this land review.

Page 8
Respondents and their counsel committed Fraud upon the Courts in their Brief and
in this case on appeal from Judge James L. Graham with the utilization of False
Documents and Perjury to obtain rulings from Judge Kim J Brown in the Franklin
County Ohio Common Pleas Courts split cases 15-CV-1892 and 18-CV-7212.
Issues presented for review: 1) Is a decision based on Fraud upon the courts a
reversable Error, 2) Is it just to use Perjured evidence and a pending, not final
judgement in a separate case adversely and prematurely to dismiss an independent
equitable proceeding, 3) Should the Federal Courts allow Appellees to Benefit from
a fraudulently obtained judgment in a proceeding that has yet to be determined and
is under Appeal and, 4) Should at least the courts await the final outcome before
issuing a death sentence of Dismissal with prejudice?
This case was dismissed prematurely without opportunity to Amend (emphasis) by
Fraud upon the courts committed by Respondents and their counsel which mislead
the court in determining issues and induced the court to find for the party
perpetrating the fraud (i.e., the Respondents).
This fraud deprives the Petitioner Merrilee Stewart the opportunity to be heard or
be afforded the due process as is guaranteed by the Fifth, Fourteenth and Seventh
Amendment to the constitution of the United States of America.
The Supreme Court and the lower federal courts have repeatedly and consistently
held that the federal courts cannot sit in review of state court judgments, but may
prevent a party from benefiting from his fraudulently obtained judgment only in an
independent equitable proceeding. "E.g., Simon v. Southern Ry., 236 U.S. 115
(1915); Howard u. DeCordova, 177 U.S. 609 (1900); Gaines v. Fuentes, 92 U.S. 10
(1875); Dulien Steel Prods., Inc. v. Connell, 252 F.2d 556 (5th Cir. 1958); and United
States v. Mashunkshey, 72 F.2d 847 (10th Cir. 1934).
The more an appellee disputes the facts, the more likely the appellate court may
conclude there is a dispute in material facts that precludes a summary judgment.
See Chris W. Altenbernd, Gary L. Sasso & George A. Vaka, CLE Presentation, How
to Prepare for an Oral Argument (Stetson U. College of L., July 26, 2000) (copy on
file with the Stetson Law Review). Also See “Federal Rule 60(b)(3), by its express
terms, permits judgments to be set aside for fraud, whether the fraud is intrinsic or
extrinsic.” Mr. G. v. Mrs. G, 320 S.C. 305, 465 S.E.2d 101 (Ct. App. 1995), fn. 2.
(Emphasis added).
The trial court case (Franklin County Common Pleas) filed on March 2, 2015 has
also been in a stayed status for over five [almost six] years, since November 10,
2015. The sole purported reason given by Defendants for Plaintiff Merrilee
Stewart’s removal

Page 9
from RRL was Petitioner’s alleged ownership of shares in TRG United Insurance,
LLC. However, these claims and defenses were stayed on November 10, 2015,
without one day of discovery and is are remain still today. (R. 53, Page ID # 464)
The Common Pleas case is about a documented and collaborated criminal enterprise
Respondent IHT, who in this court filed a perjured affidavit, subordinated by
attorney James R. Carnes, with intent to halt a police investigation and two
insurance company investigations. The perjured affidavit, supported by a culpable
attorney, was successful on both counts, stopping three investigations. (R. 53, Page
ID # 466)
This perjury, the subordination of perjury, and the obstruction of justice at the
hands of the criminal enterprise and their culpable attorney, is in violation of both
State and Federal laws. (R. 53, Page ID # 466)
Two and 1/2 years later, on December 8, 2017, the criminal enterprise admitted to
the unknowns (the commission fees with unidentified owner agents / agencies).
These unknowns were documented in signed RRL/IHT meeting minutes. Fritz
Griffioen, supported by James R. Carnes, Esq., claimed to have a plan to fix them.
Again, they claimed to have a plan to fix a commission fees embezzlement problem
that they earlier cited in their sworn affidavit “did not exist”. This is perjury and
subordination of perjury, clear and simple. (R. 53, Page ID # 466)
A. There is no release.
The idea that a new set of owners who are not a party to the RRL Buy/Sell
Agreement believe, after fraudulently seizing 100 % of RRL, are ever entitled to a
release is an error of law, fact and contract.
Plaintiff Merrilee Stewart is estranged and unredeemed minority membership
owner of RRL. (R. 53, Page ID # 463) and is the sole remaining member of RRL. The
three-controlling prior RRL members fraudulently sized 100% of RRL assets by and
for the benefit of a new set of owners, Griffion family members.
The arbitration involved the RRL Buy/Sell Agreement which contained an
agreement to arbitrate. The stated purpose of the Buy/Sell Agreement is to "dictate
how Members shares are redeemed or purchased by the Company [RRL]." (R. 63,
Page ID # 977).
The Buy/Sell Agreement contained an arbitration provision, which, by its plain
language, only covered disputes that arise "with respect" to the Buy/Sell Agreement.
This arbitration provision did not mandate the arbitration of all disputes related to

Page 10
RRL; rather, it was limited to only those disputes that related to the Buy/Sell
Agreement. (R. 63, Page ID # 978)
Ultimately the arbitration panel awarded Ms. Stewart $520,000.00 for the sale of
her membership interest in RRL and $4,475.00 for Arbitration cost, with a closing
to occur in January 2018. (R. 63, Page ID # 978)
However, Respondents never intended to actually purchase Ms. Stewarts
membership interest or obey J^the courts order. This is evident by the refusal to
even pay the $4,475.00 of Respondents share of the cost of Arbitration as ordered.
B. Res Judicata from the 2017 Arbitration is in apropos to current claims.
i. Arbitration dealt with the employers’ financial contribution to the Plan Benefits
As an active member of RRL the employer contributed 65% of the cost and as a
member on an executed Buy/Sell the employer contribution was 0%. Arbitration
denied the employer contribution, not the continuation of eligibility to be a plan
participate. See R. 59, Page ID # 858 showing partners paid 65%. See also R. 59,
Page ID # 862-863.
ii. Arbitration did not address the continuation of benefits granted to all members
similarly situated.
Prior departing members, on an executed RRL Buy/Sell, were allowed to remain on
the IHT Welfare Benefits Plan indefinitely and keep their Life Insurance coverage.
(R. 53, Page ID # 483)
Defendants do not interpret or apply the terms of the Plan with an even hand, and
do not treat alike similarly-situated persons. (EFC No. 12 Id. at 53 f 61). RRL
(former) member Glenn Roulette executed his Buy/Sell Agreement in January 2011,
yet Defendant Fritz Griffioen, individually and/or by and through Griffioen Agency,
acting as the personal insurance agent for the Plan, made certain that Glenn
Roulette and his family remained on the plan for as many years as desired. See R.
53, Page ID # 483 See also R. 59, Page ID #844.
RRL partially redeemed member Norm Fountain executed his Buy/Sell Agreement
in September 2013, yet Defendant Fritz Griffioen, individually and/or by and
through Griffioen Agency, acting as the personal insurance agent for the Plan, made
sure the Norm Fountain and his family remained on the plan for as many years as
desired. This unequal treatment of similarly situated member(s) is a violation of
Title II and

Page 11
IRS code. (R. 53, Page ID # 483) See also R. 59, Page ID #825-826, R. 59, Page ID #
830 and R. 59, Page ID # 832.
iii. Arbitration did not contemplate the 2018 uncured contract default requiring
restoration of all benefits.
Whereas, the RRL Buy/Sell Agreement §7 and the arbitration award granted
members the right to purchase membership interest over a 10-year period. Instead
of purchasing the RRL Shares as required. ALL RRL shares were fraudulently sold
to a new company and a new set of new owners in violation of law & contract.
Whereas, by contract, if RRL ceases to exist all unredeemed shares not yet
purchased must be purchased in full. By contract, if the unredeemed shares are not
purchased in full there exist a default.
Now Therefore, by contract, the uncured default results in ALL unredeemed shares
becoming active shares with full rights are privileges, including plan benefits.
Documentation is in the record in the Tenth District Court of Appeals.
III. The rights to due process and trial by jury as granted every citizen under the
Constitution of the United States of America are infringed upon.
Issues presented for review: 1) Does the case dismissal deprive the Petitioner the
opportunity to be heard or be afforded the due process as is guaranteed by the Fifth
and Fourteenth to the Constitution of the United States of America and 2) Does the
case dismissal strip Petitioner of the Seventh Amendment rights under the
constitution of the United States of America.
At no time did the district court advise Appellants that it contemplated dismissing
the case with prejudice; the court merely instructed Appellants to show cause “why
this case should not be dismissed.” In this circuit, and throughout the federal
courts, dismissal with prejudice and denying a plaintiff the opportunity to amend is
improper unless it is conclusively demonstrated that the claims could not have been
saved by amendment. This Court has repeatedly held that dismissal with prejudice
goes against the well-established preference for allowing claims to be decided on
their merits, as dismissing with prejudice is the "death penalty" sanction and the
remedy “of last resort.” R. 15, Page: 8 Appellants Brief
IV. Cognizable Events and new evidence warrant new Federal Cause of action and
there is good cause for an Amended Complaint.

Page 12
Issues presented for review: 1) Should new evidence and cognizable events cited in
the record grant Plaintiffs/Petitioner an opportunity to Amend.
Petitioner sought leave to Amend in October 2019 because of new evidence and
cognizable events. (R. 51, Page ID #: 429-458)
Pursuant to Fed. R. Civ. P. 15(A)(2), Plaintiffs are permitted to amend his
Complaint with leave of this Court. Considering new and forgoing described
cognizable events this complaint requires an amendment to contain accurate and
concise allegations. R. 51, Page ID #: 430.
The first new cognizable event is the December 31, 2018 winding down and
dissolution of Respondent RRL. Subsequently, all the assets of RRL were seized by
new owners that consist of Respondent Fritz W. Griffioen and his family members
who are all part of Respondent Griffioen Agency, LLC. This change of control was
in violation of the laws of the State of Ohio. In the Defendants’ seizure of all of the
assets of RRL they changed the ownership and beneficiary of over $6. Million in
Group Life contracts on (now former) RRL members, including Petitioner Merrilee
Stewart Q. Therefore, Plaintiffs add counts for unjust enrichment and conversion.
(R. 51, Page ID #: 430)
The second new cognizable event is the September 16, 2019 letter of Respondent
Fritz W. Griffioen sent to industry business colleges containing false, egregious and
defamatory information about Petitioner Merrilee Stewart. Therefore, Petitioner
seeks restitution for tortious interference, retaliation, defamation and industry
blacklisting as is protected in the Dodd-Frank Wall Street Reform and Consumer
Protection Act H.R. 4173 § 369 (1) (A), The United States Constitution and other
State and Federal Laws. Petitioner also allege Defamation by the Respondent Fritz
W, Griffioen as is defined in U.S. Code § 4101(1). (R. 51, Page ID #: 430)
A. Federal Whistleblower.
Petitioner Merrilee Stewart is a Victim and a whistleblower with first-hand
knowledge of crimes and illegal activities perpetrated by Respondent RRL
members, Fritz W. Griffioen, Bill Griffioen and Rodney Mayhill, who collectively
form a majority in the close corporation. This collective majority voted themselves
to serve on the board and in a management positions of Respondent IHT. RRL
wholly owned (100%) of IHT. (R. 53, Page ID # 463)
The controlling members of RRL, collectively forming a majority have used the past
five years [..] to violated their duties owed to the minority owner, Petitioner
Merrilee

Page 13
Stewart, in a close corporation. See Crosby u. Beam, 47 Ohio St.3d 105, 548 N.E.2d
217 (1989).
Respondents violated State and Federal whistleblower laws designed to protect
Petitioner Merrilee Stewart from harassment, intimidation and retaliation as an
inside informant of multiple provable and documented felonies; citing Ohio Rev.
Code § 4113.52 and Federal protection in the Dodd-Frank Wall Street Reform and
Consumer Protection Act, Pub. L. No. 111-203, 124 Stat. 1376 (2010) codified in the
new section 21F of the Securities Exchange Act of 1934. (R. 53, Page ID # 465)
Petitioner Merrilee Stewart was granted a close up look at the Respondent IHT
operations when she served in a management capacity of Vice President at IHT
beginning on August 22, 2012 and then as President beginning on September 5,
2013. In early 2013, RRL outside Attorney Christopher B. Murphy was hired to
examine, identify and recommend corrective action on all “At Risk” business
practices at Defendant IHT. (R. 53, Page ID # 468)
One of the uncovered and documented “At Risk” business practices was the
placement of supplier accounts (“policies”) onto an unknown list, failing to pay the
supplier, failing to sequester the accounts payable obligation, and then distributing
the money to the owners as fictitious profits. (R. 53, Page ID #: 468)
On December 11, 2014 at an RRL meeting Petitioner Merrilee Stewart presented
two possible plans to correct the Unknowns (i.e., unpaid & unrecorded accounts
payable obligations) and other attorney identified “At Risk” items. On December 30,
2014 the collective majority of RRL members sent Ms. Stewart a notice of removal,
with a closing date of March 30, 2015. (R. 53, Page ID # 469)
Yet, instead of closing on Ms. Stewart’s membership shares on March 30, 2015, the
Respondents filed the Franklin County Common Pleas trial court case on March 2,
2015, (wrongfully) accusing her of stealing funds from Respondent RRL. This
allegation was subsequently proven false by the Arbitration Panel, as Ms. Stewart
was entitled to the funds identified. (R. 53, Page ID #: 469)
On or about January 2016, additional documentation was uncovered with the
assistance of former IHT President Norman L. Fountain that revealed the
embezzlement of funds (the Unknowns) was systemic from the beginning of the
entity in 2005. The record of unknowns now surpassed 8,900 unknown transactions
with a total value of at least $8,400,000.00. Additionally, many more records of
redlining and antitrust violations were discovered. (R. 53, Page ID #: 469-470)

Page 14
RRL partially redeemed member Norman L. Fountain joined with Ms. Stewart as
an additional inside informant for the Federal Bureau of Investigation, the United
States Department of Treasury - Internal Revenue Service investigation and the
redlining and SEC Anti-trust claim. (R. 53, Page ID #: 470)
The United States Department of Treasury complaint centered on the topic of
discriminatory practices of Respondent IHT in the distribution of Auto and Home
insurance in 24 states through contracted insurance agents / suppliers. IHTs
“Affluent Middle-Class” rules essentially boycott entire communities, predominately
in our underserved and ethnic communities, from access to Auto or Home insurance
from the Preferred Insurance Carriers. This significantly limits their access to
preferred carriers and significantly increases their cost. (R. 53, Page ID #: 470)
The contracted suppliers for IHT are forced to abide by the discriminatory rules or
be shut off from access to the insurance carrier products and the ability to service
their customers. This Boycotting of citizens from access to Auto and Home
insurance by forcing the suppliers to abide by “Affluent Middle-Class” rules is an
anti-trust violation. In addition, these “Affluent Middle-Class” rules violate the
Fair Housing Act and The Civil Rights Act. (R. 53, Page ID #: 470)
The Dodd-Frank Wall Street Reform and Consumer Protection Act Established
Treasury's Federal Insurance Office (“FIO”) and vested FIO with the authority to
monitor all aspects of the insurance sector, including monitoring the extent to which
traditionally underserved communities and consumers have access to affordable
non-health insurance products. Title V of the Act establishes the FIO within the
Department of the Treasury. The FIO has authority over all lines of insurance,
except health insurance. See 31 U.S.C. § 313. Title V specifically empowers the
Office to monitor the extent to which traditionally underserved communities and
consumers have access to affordable insurance products. (R. 53, Page ID #: 470)
B. Federal Civil Rights Laws & American Disability Act and the EEOC right
to sue were not part of Arbitration
Ms. Stewart’s son, Charles B. Stewart’s medical record indicates treatment for his
disability. Respondent Fritz Griffioen denied Charles Stewart’s re-employment at
IHT when he sought permission to return to work. Fritz Griffioen used his private
medical information as the reason for denial to return to work, in violation of
Americans with Disabilities Act.

Page 15
Fritz Griffioen, individually and/or by and through Griffioen Agency, used
information concerning Plaintiff Charles Stewart’s medical condition to ensure that
Mr. Stewart would never be qualified to work in the insurance business again. (EFC
No. 12 Id. at 56 1 81)
Furthermore, Fritz Griffioen made publicly known Charles B. Stewart’s medical
history. The information obtained by Defendant(s) was highly sensitive and
confidential, and was an intrusion into private affairs and solitude. (EFC No. 12 Id.
at 56 t 82)
Respondents’ intrusion into Plaintiffs’ private affairs, and the reasons for intrusion,
is highly offensive to a reasonable person. (EFC No. 12 Id. at 56 f 83)
Ms. Stewart and her son Charles Stewart suffered damages as a result of
Respondents’ invasion of privacy (intrusion). (EFC No. 12 Id. at 56 f 84)
C. Identity Theft, Mail Fraud, Tax Evasion, Retaliation
The actions, including Identity Theft, Mail Fraud and Tax Evasion, taken by Fritz
Griffioen, Chief Financial Officer at IHT and previously RRL against Ms. Stewart, a
documented Whistleblower, are in retaliation for the reporting of criminal activity
to the proper authorities including the IRS.
Ms. Stewart submitted an IRS Identity Theft Affidavit, Report No. 1545-2139,
reporting as a victim of Identity Theft and the resulting tax evasion and mail fraud
perpetrated by IHT and their Chief Financial Officer (“CFO”), Fritz W. Griffioen.
Ms. Stewart’s management position in IHT from 2007 through 2014 was an
employee relationship with IHT pursuant to IRS code and as such IHT owns
Federal Employment Taxes for Social Security, Medicare and Federal
Unemployment.
The structure of RRL Members working in management positions at IHT and
improperly reporting wages as distributions in RRL is a direct violation of IRS Tax
Code and an avoidance of the required Federal taxes including Social Security,
Medicaid, Medicare and Unemployment. See Alison Day, Esq of Littler (R. 59, Page
ID #800) narrative and Sarah Cole, Esq the scriber of the Arbitration Award (R. 59,
Page ID #807-809) narrative confirming this structure of working in a management
position at IHT (employee/employer) relationship. See Also Ohio Department of
Insurance determination “termination of insurance was the result of termination of
employment. (R. 59, Page ID #797).

Page 16
The Taxpayer First Act (“TFA”) protects tax whistleblowers against retaliation,
including whistleblowers that have provided information to the IRS.
Section 1405(b) of the TFA prohibits any “employer, officer, employee, contractor,
subcontractor, or agent” of an employer from retaliating against a whistleblower.
Section 1405(b) of the TFA applies the causation standard and burden-shifting
framework set forth in the AIR21 Whistleblower Protection Law. Under that
framework, the whistleblower prevails by proving that their protected
whistleblowing was a contributing factor in the unfavorable personnel action taken
by their employer. The DOL ARB has emphasized that the standard is low and
“broad and forgiving”; protected activity need only play some role, and even an
“[in]significant” or “[in]substantial” role suffices. Palmer v. Canadian Nat’l R.R.,
ARB No. 16-035, ALJ No. 2014-FRS-154, at 53 (ARB Sept. 30, 2016) (emphasis in
original). Examples of circumstantial evidence that can establish “contributing
factor” causation include:
Effective on the date of enactment, the TFA amends the Code to extend anti­
retaliation provisions to IRS whistleblowers like those that are provided to
whistleblowers under the False Claims Act and the Sarbanes-Oxley Act. (Code Sec.
7623(d) as amended by Act Sec. 1405(b))
Once the whistleblower proves that their protected conduct was a contributing
factor in the adverse action, the employer can avoid liability only if it proves by
clear and convincing evidence that it would have taken the same adverse action in
the absence of the whistleblower engaging in protected conduct.
If retaliation is found to have occurred, the whistleblower may be eligible for
reinstatement, double back-pay, interest on unpaid amounts, attorney fees and
costs, and “special damages” which can include emotional distress and reputational
harm.
Petitioner seeks reversal and remand to allow the filing of an Amended Complaint
or, alternately, to seek a stay pending the final disposition of the state court case.
(R. 15, Page 21 § III Appellants Brief)
VII. Reason for Granting the Writ
Petitioner Merrilee Stewart moves this Supreme Court of these United States of
America to review these very important questions of constitutional and federal law
protections that were pot, but should be, settled by the State Courts.

Page 17

First, With the death of my son, Charles Bedwell Stewart, October 18, 1991 ~
December 16, 2020 (age 29), I am seeking a discrimination attorney with admission
to the bar of this court to represent his interest in this important case involving this
national epidemic.
“Charlie saved the lives of many of our addicted and mentally ill. Charlie
spent time working with the people living off the land, in the emergency
room, leading/attending NA meetings daily and participating in public
speeches about solutions.
See
To Fight Drug Addiction. Hospitals Hire Recovering Addicts I Side Effects
(sideeffectspublicmedia.org)
I will continue to fight for services and protections for all people, especially
and including those struggling with drug addiction, alcoholism and mental
illness.” Merrilee Stewart, mother
Although scientific advances over the past decades have shown that addiction is a
chronic medical illness, the view that it is a “moral failing” remains prevalent and
the associated stigma is persistent.
Thus, Employee’s continue to experience significant negative consequences as a
result of prejudice and ignorance and in this case, having participated in recovery
treatment was itself the basis for a discriminatory response waged against both
Petitioner Merrilee Stewart and her disabled son.
Unfortunately, patients with substance use disorders still face
consequences associated with disclosure, including loss of employment.

enormous

As our country faces an unprecedented epidemic of opioid addiction and overdose,
we must ensure that fear of discrimination does not deter people from seeking
treatment.
“Federal civil rights laws prohibit discrimination in many areas of life
against qualified “individuals with disabilities.” Many people with past and
current alcohol problems and past drug use disorders, including those in
treatment for these illnesses, are protected from discrimination...”
Second, our justice system relies upon officers of the court including judges and
attorneys who have an obligation to promote justice and the effective operation of
the judicial system.
When officers of the court engage in Fraud upon the court, ignore the authority and
orders of the higher court, and fail to enforce Federal Law (as prevails in this case)
this seriously affects the integrity of the normal process of adjudication.

Page 18
Finally, Citizens must believe and trust the integrity of the Judiciary and be
afforded the protections guaranteed by state and federal law when they fulfill their
duty to report criminal activity. The Enforcement of Whistleblower protections is
an essential component to the quality of justice which lies firmly in the hands of the
Judiciary.
I

Ms. Stewart continues to endure multiple scorching tactics, including but not
limited to: liable, slander, defamation, industry blacklisting, harassment,
retaliation, threats, identity theft, mail fraud, tax evasion, refusal to supply tax
forms and years of non-payment of payroll taxes.
When the Judiciary fails, as in this case, the likelihood of future Whistleblowers
coming forward diminishes, as does justice.
VIII. Conclusion
For the preceding reasons, Petitioner Merrilee Stewart prays the petition for a writ
of certiorari will be granted.
Respectfully Submitted,
Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

